       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
September 22, 2010

Report Number: A-01-10-00006

JudyAnn Bigby, MD
Secretary
Executive Office of Health and Human Services
One Ashburton Place
Boston, Massachusetts 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments at Age Institute of
Massachusetts, Inc. for State Fiscal Years 2007 through 2009. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-10-00006 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Dr. JudyAnn Bigby


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
ROchiORA@cms.hhs.gov
 Department of Health & Human Services
            OFFICE OF


       INSPECTOR GENERAL






REVIEW OF MEDICAID PAYMENTS AT


AGE INSTITUTE OF MASSACHUSETTS,


INC. FOR STATE FISCAL YEARS 2007


          THROUGH 2009






                       Daniel R. Levinson


                        Inspector General



                        September 2010


                         A-01-10-00006


                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                  EXECUTIVE SUMMARY



BACKGROUND 


The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the Recovery Act provides an estimated $87 billion in
additional Medicaid funding based on temporary increases in States’ Federal medical assistance
percentage. Section 5000 of the Recovery Act provides these increases to help avert cuts in
health care provider payment rates, benefits, or services and to prevent changes in income
eligibility requirements that would reduce the number of individuals eligible for Medicaid.

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (the
State agency) is responsible for administering MassHealth, the Massachusetts Medicaid program,
in compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its Quarterly Statement of
Expenditures for the Medical Assistance Program (CMS-64).

Age Institute of Massachusetts, Inc. (AGE) is a Massachusetts provider with four Medicare- and
Medicaid-certified nursing homes in Springfield, Chicopee, and Westfield, Massachusetts. The
four nursing homes are the Chapin Center, Willimansett Center East, Willimansett Center West,
and Governor’s Center.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments in
accordance with Federal and State requirements to AGE during State fiscal years 2007 through
2009 (July 1, 2006 through June 30, 2009).

SUMMARY OF FINDING

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to AGE during our audit period. However, the State agency did not always adjust
its Medicaid per diem payments to AGE by the amount of beneficiaries’ cost-of-care

                                                 i
contributions from other resources, such as Social Security and pensions. As a result, the State
agency’s Federal claim was overstated by a total of $150,612 ($80,532 Federal share), of which
$58,070 ($34,262 Federal share) of this amount occurred during the period covered by the
Recovery Act. We attributed the incorrect Medicaid payments to clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •		 collect overpayments totaling $150,612 from AGE and refund the $80,532 Federal share
       of these overpayments to CMS on its quarterly CMS-64, and

   •		 continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

AGE COMMENTS

In written comments on our draft report, AGE was in agreement with the findings that equal
$150,612. AGE’s comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency was in agreement with both findings. The
State agency’s comments are included in their entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS



                                                                                                                         Page

INTRODUCTION..........................................................................................................1



          BACKGROUND .................................................................................................1



          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2


               Objective ..................................................................................................2


               Scope........................................................................................................2


               Methodology............................................................................................2



FINDING AND RECOMMENDATIONS...................................................................2



          FEDERAL AND STATE MEDICAID REQUIREMENTS................................3



          UNADJUSTED NURSING HOME PAYMENTS ............................................3 


          AMOUNT OWED FEDERAL GOVERNMENT ...............................................3



          CAUSE OF UNREPORTED OVERPAYMENTS .............................................4



          RECOMMENDATIONS.....................................................................................4



          AGE COMMENTS..............................................................................................4



          STATE AGENCY COMMENTS........................................................................4





APPENDIXES

          A- MEDICAID OVERPAYMENTS TO AGE INSTITUTE OF


             MASSACHUSETTS, INC., BY STATE FISCALYEAR



          B- AGE INSTITUTE OF MASSACHUSETTS, INC. COMMENTS

          C- STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION



BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted 

February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid 

programs in a period of economic downturn. For the recession adjustment period (October 1, 

2008, through December 31, 2010), the Recovery Act provides an estimated $87 billion in 

additional Medicaid funding based on temporary increases in States’ Federal medical assistance 

percentage. Section 5000 of the Recovery Act provides these increases to help avert cuts in


health care provider payment rates, benefits, or services and to prevent changes in income


eligibility requirements that would reduce the number of individuals eligible for Medicaid. 


Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides


medical assistance to low-income individuals and individuals with disabilities. The Federal and


State Governments jointly fund and administer the Medicaid program. At the Federal level, the


Centers for Medicare & Medicaid Services (CMS) administer the program. Each State 

administers its Medicaid program in accordance with a CMS-approved State plan. The 

Massachusetts Executive Office of Health and Human Services, Office of Medicaid (the State 

agency) is responsible for administering MassHealth, the Massachusetts Medicaid program, in 

compliance with Federal and State statutes and administrative policies.



The State agency reimburses nursing homes based on an established per diem rate for services 

provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must


use certain additional resources that a beneficiary has, including Social Security payments, to 

reduce its Medicaid payments to nursing homes. The State agency determines the amount of the


beneficiary’s contribution to the cost of care during the financial eligibility process and enters


this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to


the nursing home each month. 


When the State agency does not reduce the Medicaid per diem payment to the nursing home by


the amount of the beneficiary’s contribution, the nursing home could receive overpayments. 

Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State


Medicaid program, which in turn is required to refund the Federal share to CMS on its Quarterly


Statement of Expenditures for the Medical Assistance Program (CMS-64). 


Age Institute of Massachusetts, Inc. (AGE) is a Massachusetts provider with four Medicare- and 

Medicaid-certified nursing homes in Springfield, Chicopee, and Westfield, Massachusetts. 

The four nursing homes are the Chapin Center, Willimansett Center East, Willimansett Center


West, and Governor’s Center.






                                                 1


OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments in
accordance with Federal and State requirements to AGE during State fiscal years 2007 through
2009 (July 1,2006 through June 30, 2009).

Scope

For the period July 1, 2006 through June 30, 2009, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of AGE’s procedures for reviewing accounts and reporting overpayments to the
Medicaid program.

We performed fieldwork from March to August 2010 at AGE in Springfield, Chicopee, and
Westfield, Massachusetts; the State agency in Boston, Massachusetts; and the CMS Regional
Office in Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •		 reviewed State and Federal regulations pertaining to overpayments,

   •		 worked with AGE officials to identify credit balances in AGE’s accounting records that
       were potentially created by cost-of-care overpayments,

   •		 reviewed Medicaid remittance advices and patient accounts to determine whether


       overpayments had occurred, 


   •		 determined the cause of the overpayments, and

   •		 coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to AGE during our audit period. However, the State agency did not always adjust
its Medicaid per diem payments to AGE by the amount of beneficiaries’ cost-of-care

                                                2

contributions from other resources, such as Social Security and pensions. As a result, the State
agency’s Federal claim was overstated by a total of $150,612 ($80,532 Federal share), of which
$58,070 ($34,262 Federal share) of this amount occurred during the period covered by the
Recovery Act. We attributed the incorrect Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual's total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 notes that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.

UNADJUSTED NURSING HOME PAYMENTS

The State made 600 overpayments to the four AGE nursing homes on behalf of an average of 17
Medicaid beneficiaries each month during July 1, 2006 through June 30, 2009 (Appendix A).
Specifically, the State agency did not adjust its Medicaid payments to AGE by the amount of
beneficiaries’ cost-of-care contributions from other resources, such as Social Security and
pensions.


                  Example of Medicaid Overpayment for One Beneficiary

   Mrs. B was a patient at AGE nursing home during June 2009. Based on her other
   resources, the State agency calculated Mrs. B’s cost-of-care contribution to be $650 a
   month. The State agency determined that the nursing home was entitled to a monthly
   payment of $4,500. Because of Mrs. B’s $650 cost-of-care contribution, the State agency
   was responsible for only $3,850 of the $4,500 nursing home costs. However, the nursing
   home received a total of $5,150 ($4,500 from the State agency and $650 from Mrs. B),
   because the State agency’s computer system did not adjust the payment amount to take into
   consideration for Mrs. B’s cost-of-care contribution. Thus, the nursing home received an
   overpayment of $650 ($5,150 minus $4,500) for Mrs. B’s care for the month of June.


AMOUNT OWED FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to AGE for the period July 1, 2006 through June 30, 2009, was overstated by a total of $150,612
($80,532 Federal share).




                                                3


CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 600 incorrectly reimbursed Medicaid payments to clerical and billing errors.
Massachusetts officials informed us that they have recently implemented a new computer system
which will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •		 collect overpayments totaling $150,612 from AGE and refund the $80,532 Federal share
       of these overpayments to CMS on its quarterly CMS-64, and

   •		 continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

AGE COMMENTS

In written comments on our draft report, AGE was in agreement with the findings that equal
$150,612. AGE’s comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency was in agreement with both findings. The
State agency’s comments are included in their entirety as Appendix C.




                                               4


APPENDIXES


APPENDIX A: MEDICAID OVERPAYMENTS TO AGE INSTITUTE OF


      MASSACHUSETTS, INC., BY STATE FISCAL YEAR



           Average Number of
Fiscal      Beneficiaries with     Number of         Total
Year     Overpayments per Month   Overpayments   Overpayments

 2007            10                   120          $ 24,651

 2008            25                   300            55,732

 2009            15                   180            70,229


TOTAL            17                   600           $150,612
             APPENDIX B: AGE INSTITUTE OF MASSACHUSETTS, INC. COMMENTS



                 AGE 

                 AGE Institute ofMt1Ssachusetts, Inc.
                     A NOT !'OR PROfiT CORPORATION




                                                                                      September 17, 2010


Department of Health and Human Services
Office of Inspector General
Office of Audit Services
Region 1
John F Kennedy Federal Building
Boston, MA 02203

Reference: Report number A-01-1 0-00006

Dear Mr. Johnson:

We are in receipt of the above referenced report in connection with the review of Medicaid payments
and are in agreement with the findings that equal $150,612 for all Age Institute of Massachusetts, Inc.
facilities combined . The scope of this audit was the state fiscal years 2007 through 2009 (July 1, 2006
through June 30, 2009) .

Breakdown of totals
Fiscal Year         # of overpayments                            Total Overpayments

   2007                             120                                   $24,651

   2008                             300                                   $55,732

   2009                             180                                   $70,229

   Total                            600                                   $150,612


We are also under the understanding that your report will be sent to the State of Massachusetts with
the recommendation that they collect the overpayment of $150,612. Per your report; the overpayments
were primarily caused due to clerical and billing errors by the State of Massachusetts.

Any questions or comments please contact Chris Collins at 561-801-7592 or email
ccollins@airamidfs.com .

On behalf of Age Institute of Massachusetts, Inc. ,




Managing Agent

                                                        Two Bala Plaza, Suite 300 

                                                         Bala Cynwyd, PA 19004 

                                  APPENDIX C: STATE AGENCY COMMENTS

                                     The Commonwealth of Massachusetts                                 MassHealth
                                 Executive Office of Health and Human Services
                                                Office of Medicaid
                                              One Ashburton Place
 DEVAL 1. PATRICK                              Boston, MA 02108
      Goven1or

TIMOTHY P. MURRAY
 Lieutenant Governor

JUDYANN BIGBY, M .D .
      Secretary


                   August 24, 2010

                    Michael J. Armstrong
                    Regional Inspector General , Audit Services
                    HHS/OIG/OAS
                    Region I
                    JFK Federal Building
                    Boston, MA 02203

                    RE: Audit Report No: A-01-10-00006

                   Dear Mr. Armstrong,

                    Thank you for the opportunity to review and comment on Draft Audit Report No.: A-01-10-00006
                    Review of Medicaid Payments at Age Institute of Massachusetts, Inc. for State Fiscal Years 2007 ­
                    2009

                   Our responses to the report's specific recommendations are as follows :
                   Recommendation:

                   1) Collect overpayments totaling $ 150,612 from Age Institute and refund $ 80,532 Federal share of
                   these payments to CMS on the next quarterly CMS-64.

                   Response: We are in agreement with this finding and will follow the procedures described in state
                   Medicaid regulations at 130 CMR 450.237 to collect the overpayments from the provider. Under 130
                   CMR 450 .237, the provider has a due process right to contest the overpayment, including the right to
                   request an adjudicatory hearing and judicial review. We will need the OIGs workpapers identifying the
                   specific claims in order to undertake collection of the overpayments and to defend any challenge to
                   collection by the provider. If the provider does not contest the overpayment collection or its contest to
                   the overpayment does not succeed , we will work with EOHHS' Federal Revenue Unit to return the
                   Federal share on the appropriate CMS-64.

                   Recommendation:

                   2) 	 Continue agency efforts to ensure that Medicaid overpayments to nursing homes are identified ,
                        collected and refunded .

                   Response: We are in agreement with this finding and will ensure that periodic reviews and audits are
                   conducted to identify, collect and refund overpayments.

                   Thafik you, again, for the opportunity to respond to the draft report.



                  S; IJDOU9~
                       .GCt

                  , Terence G.
                   Medicaid   Directo:fty~
